APPENDIX TABLE OF CONTENTS1
Opinion of the Fourth Circuit
(February 5, 2019)

la

Memorandum and Order Denying Emergency
Motion (September 22, 2017)
4a
Memorandum and Order Re: Remand
of the District Court of Maryland
(September 20, 2017)

9a

Order Remanding Case of the District Court of
21a
Maryland (September 20, 2017)
Memorandum and Order Re: Remand
of the District Court of Maryland
(March 17, 2017)

23a

Order of the Fourth Circuit Denying Petition for
Rehearing En banc (March 11, 2019)
31a
Notice of Appeal
(September 25, 2017)

32a

Petition for Disciplinary or Remedial Action
[AGC Complaint] (February 17, 2016)
35a

1 In the state court proceedings, the Attorney Grievance Commission of Maryland is the "Petitioner" and Jason Edward Rheinstein is
the "Respondent." As such, as they appear in documents within
the Appendix, the term "Petitioner" refers to the Attorney Grievance Commission of Maryland, and the term "Respondent" refers
to Jason Edward Rheinstein.

AGC Answers to Rheinstein's Corrected First Set
of Interrogatories—Relevant Excerpts
(August 30, 2017)
62a
AGC Schedule A: Answers to Interrogatories and
Responses to Request for Production of
Documents—Relevant Excerpts
(August 21, 2017)
65a
Deposition of AGC Designee Marianne J. Lee
Transcript—Relevant Excerpt
(August 7, 2017)
70a

App . la

OPINION OF THE FOURTH CIRCUIT
(FEBRUARY 5, 2019)
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

ATTORNEY GRIEVANCE
COMMISSION OF MARYLAND,
Plain tiff-Appellee,
v.
JASON EDWARD RHEINSTEIN,
Defendant-Appellant.
No. 17-2127
Appeal from the United States District Court for the
District of Maryland, at Baltimore. Marvin J. Garbis,
Senior District Judge. (1:17-cv-02550-MJG)
Before: WILKINSON and MOTZ, Circuit Judges,
and TRAXLER, Senior Circuit Judge.
PER CURIAM:
Jason Edward Rheinstein appeals the district
court's orders granting the Attorney Grievance Commission of Maryland's motion to remand for lack of
federal jurisdiction and denying Rheinstein's emergency motion to stay remand pending appeal or for
reconsideration or for appropriate relief. We dismiss
in part and affirm in part the district court's orders

App.2a

denying the notice of removal and remanding the case
to state court and denying Rheinstein's emergency
motion.
"An order remanding a case to the State court
from which it was removed is not reviewable on appeal
or otherwise, except that an order remanding a case
to the State court from which it was removed pursuant
to [28 U.S.C. §§ 1442 or 1443 (2012)] shall be reviewable
by appeal or otherwise." 28 U.S.C. § 1447(d) (2012).
Rheinstein removed the action pursuant to the federal
officer removal statute, 28 U.S.C. § 1442, and, pursuant
to 28 U.S.C. §§ 1331, 1441(a (2012), on the ground
that it presented a federal question.
A defendant seeking to remove a case under
Section 1442 must establish (1) [he] is a federal officer or a person acting under that
officer; (2) a colorable federal defense; and (3)
the suit is for an act under color of office,
which requires a causal nexus between the
charged conduct and asserted official authority.
Northrup Grumman Tech. Servs., Inc. v. DynCorp
Intl LLC, 865 F.3d 181, 186 (4th Cir. 2017) (internal
citations and quotation marks omitted). Because
Rheinstein failed to meet his burden of establishing
that he met these criteria, we affirm the portion of
the district court's orders remanding for lack of subject matter jurisdiction under the federal officer
removal statute and denying the emergency motion.
The remainder of the appeal must be dismissed because
this court lacks jurisdiction to review the district
court's order. See 28 U.S.C. § 1447(d).

App.3a

We therefore dismiss the appeal in part and affirm
in part. We dispense with oral argument because the
facts and legal contentions are adequately presented
in the materials before this court and argument would
not aid the decisional process.
DISMISSED IN PART, AFFIRMED IN PART

App.4a

MEMORANDUM AND ORDER
DENYING EMERGENCY MOTION
(SEPTEMBER 22, 2017)
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF MARYLAND

ATTORNEY GRIEVANCE
COMMISSION OF MARYLAND,
Plaintiff:
v.
JASON EDWARD RHEINSTEIN,
Defendant.
Civil Action No. MJG-17-2550
Before: Marvin J. GARBIS,
United States District Judge.
The Court has before it Defendant's Emergency
Motion to Stay Remand Order Pending Filing of Notice
of Appeal; or In The Alternative, Emergency Motion
for Reconsideration; or In The Alternative; Motion for
Appropriate Relief [ECF No. 89] and the materials
submitted relating thereto. The Court has held a
telephonic hearing and has had the benefit of the
arguments of counsel.
In the Memorandum and Order Re: Remand [ECF
No. 86], issued September 20, 2017, the Court granted
Plaintiffs Motion to Remand [ECF No. 68]. The Court

App.5a
entered an Order Remanding Case [ECF No. 87] to the
state court on the same day.
Defendant alleges that the Court's Order Remanding Case was erroneously issued and that appellate
review is not prohibited by 28 U.S.C. § 1447(d) because
removal should have been permitted under 28 U.S.C.
§ 1442 (federal officer or federal agency jurisdiction).
The Court, having considered Defendant's current
contentions, confirms its decision that remand is
appropriate as held in the Memorandum and Order Re:
Remand and, again states that even if the Court had
jurisdiction, it would abstain from proceeding with
the case in federal court.
Defendant's asserted precedents do not support
his entitlement to have his state court attorney grievance proceedings adjudicated by the federal, rather
than state, court systems.
First, Defendant cites Sawyer v. Foster Wheeler
LLC, 860 F.3d 249 (4th Cir. 2017). Sawyer states that
a government contractor could remove a state tort
action to federal court based on the contractor's
assertion that it had a colorable federal defense of
government-contractor immunity. Id. at 256. However,
Defendant's position as a relator in a previous qui
tam action does not confer him federal jurisdiction in
his current attorney removal proceeding case. Even
though the federal officer removal statute under 28
U.S.C. § 1442 covers actions "for or relating to any
act under color of such office," Defendant's participation
in the qui tam proceedings was not done under color
of office. And, as explained in this Court's first remand
order, putting aside the question of whether a qui
tam relator is analogous to a government contractor,
Defendant has not shown a colorable federal defense.

App.6a

Attorney Grievance Commission of Maryland v. Rheinstein, Civ. No. MJG-16-1591, ECF No. 30, at 5-7 (Mar.
17, 2017).
Defendant also cites U.S. ex rel. Kelly v. Boeing
Co., 9 F.3d 743 (9th Cir. 1993). Boeing considered the
constitutionality of the qui tam provisions in the False
Claim Act. It has nothing to do with subject matter
jurisdiction or removal to federal court. Defendant
picks a choice quote from the part of the opinion that
discusses whether a qui tam plaintiff has standing to
sue under the False Claims Act, which is not at issue
here. Def.'s Emergency Mot. ¶ 2.
Next, Defendant cites Vermont Agency of Nat. Res.
v. U.S. ex rel. Stevens, 529 U.S. 765 (2000). In Vermont
Agency of Nat. Res., a private relator attempted to
bring suit in federal court on behalf of the United
States against a State under the False Claims Act.
The Supreme Court held that although a private
individual has standing to bring suit in federal court
on behalf of the United States under the False Claims
Act, the Act does not subject a State to liability in
such actions. Id. at 788. The jurisdictional question
was whether a State was a "person" for purposes of
qui tam liability. This is irrelevant to the analysis of
the instant case presenting the question of whether
Rheinstein committed attorney misconduct as a Maryland-barred lawyer.
Finally, Defendant cites Northrop Grumman Tech.
Servs., Inc. v. Dy-nCorp Int'l LLC, 2016 WL 3346349,
at *1 (E.D. Va. June 16, 2016), a case in which the
district court granted a plaintiffs emergency motion
to stay the remand order until the appeal was resolved.
On its own, the decision does not present a reason
why, in this case, the Court should provide Defendant

App.7a

his requested delay of the state attorney grievance
proceeding.
Moreover, this Court may not reconsider its ruling.
See In re Lowe, 102 F.3d 731, 736 (4th Cir. 1996)
("Accordingly, we hold that a federal court loses jurisdiction over a case as soon as its order to remand the
case is entered. From that point on, it cannot reconsider its ruling . . . "). The case that Defendant cites
to challenge this proposition addresses an attempt to
secure a more favorable state forum by using a motion
for voluntary dismissal. Wingo v. State Farm Fire &
Cas. Co., 2013 WL 4041477, at *1 (W.D. Mo. Aug. 8,
2013). It is entirely irrelevant.
Defendant has not explained why he has not—or
at least not yet—filed an appeal from the Court's
Order on the § 1442 claim of federal jurisdiction and
sought promptly to have the appellate court to stay
the instant case pending resolution of his appeal.
Perhaps he will now do so. In any event, with the
state court trial set to proceed in little over a week,
this Court does not find it appropriate to grant
Defendant the delay in facing the grievance proceedings
pending against him.
[*** ]
Accordingly, Defendant's Emergency Motion to
Stay Remand Order Pending Filing of Notice of Appeal;
or In The Alternative, Emergency Motion for Reconsideration; or In The Alternative; Motion for Appropriate Relief [ECF No. 891 is DENIED.

App.8a

SO ORDERED, this Wednesday, September 22,
2017.

/s/ Marvin J. Garbis
United States District Judge

App.9a

MEMORANDUM AND ORDER RE: REMAND
OF THE DISTRICT COURT OF MARYLAND
(SEPTEMBER 20, 2017)
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF MARYLAND

ATTORNEY GRIEVANCE
COMMISSION OF MARYLAND,
Plain tiff,
v.
JASON EDWARD RHEINSTEIN,
Defendant.
Civil Action No. MJG-17-2550
Before: Marvin J. GARBIS,
United States District Judge.
The Court has before it Plaintiff Attorney Grievance Commission of Maryland's Motion to Remand
for Lack of Federal Jurisdiction [ECF No. 68] and the
materials submitted relating thereto. The Court has
held a telephonic hearing and has had the benefit of
the arguments of counsel.
I. Background
This Court has previously granted a Motion to
Remand in this case. Attorney Grievance Commission
ofMaryland v. Rheinstein, Civ. No. MJG-16-1591, ECF

App.10a

No. 30 (Mar. 17, 2017) ("First Remand Order"). Defendant alleges that the existence of new facts warrant
the filing of a successive Notice of Removal.
The underlying cause of action remains the same.
On February 17, 2016 the Attorney Grievance Commission of Maryland ("AGC") filed, in the Maryland
Court of Appeals, a Petition for Disciplinary of Remedial
Actions against Jason Edward Rheinstein ("Rheinstein"). On February 19, 2016, the Court of Appeals
of Maryland transmitted the Petition to the Circuit
Court for Anne Arundel County to hold a judicial
hearing pursuant to Maryland Rule 16-757.
On May 23, 2016, Rheinstein filed his first Notice
of Removal, contending that this Court can exercise
subject matter jurisdiction over the case under 28
U.S.C. § 1441 (federal question jurisdiction) and 28
U.S.C. § 1442 (federal officer jurisdiction). Civ. No.
MJG-16-1591, ECF No. 1. AGC filed a Motion to
Remand, which this court granted on March 17, 2017.
In its First Remand Order, this Court found no federal
jurisdiction based on a federal question, no jurisdiction
based on federal officer standing, and that federal
abstention principles favored a remand. Following
the Order, trial was set in the Circuit Court for Anne
Arundel County for September 5, 2017.
On Friday, September 1, 2017, Rheinstein filed a
second Notice of Removal in this Court, contending
that AGC's recent interrogatory responses and deposition testimony gave rise to new and different grounds
for removal. Notice of Removal ¶ 4, ECF No. 1. The
state court proceeding was stayed on September 5,
2017, the next business day.

App.11a

In this instant motion, the AGC once again seeks
remand for lack of federal jurisdiction.
II. Jurisdictional Principles
The party invoking federal jurisdiction has the
burden of establishing that removal is proper and
that the Court has subject matter jurisdiction. Mulcahey v. Columbia Organic Chemicals Co., 29 F.3d 148,
151 (4th Cir. 1994). Removal statutes should be
strictly construed, and if "federal jurisdiction is
doubtful, a remand is necessary." Id. Indeed, a federal court is to "presume . . . that a case lies outside its
limited jurisdiction unless and until jurisdiction has
been shown to be proper." United States v. Poole, 531
F.3d 263, 274 (4th Cir. 2008) (emphasis in original).
"A successive removal petition is permitted only
upon a 'relevant change of circumstances'—that is,
`when subsequent pleadings or events reveal a new
and different ground for removal."' Reyes v. Dollar
Tree Stores, Inc., 781 F.3d 1185, 1188 (9th Cir. 2015)
(emphasis in original). The phrase "different grounds"
can mean "a different set of facts that state a new
ground for removal" or "new facts in support of the
same theory of removal." Cain v. CVS Pharmacy, Inc.,
2009 WL 539975, at *2 (N.D.W. Va. Mar. 4, 2009).
Even if there is federal jurisdiction, federal
courts must abstain from interfering in state proceedings "absent extraordinary circumstances." Middlesex
Cty. Ethics Comm. v. Garden State Bar Ass'n, 457
U.S. 423, 431 (1982). If an ongoing state proceeding
exists, "'reinstituting the action in the federal courts'
is impermissible; indeed to do so would involve a loss
of time and duplication of effort." Telco Commc'ns,
Inc. v. Carbaugh, 885 F.2d 1225, 1228 (4th Cir. 1989).

App.12a

III. Discussion
Rheinstein has failed to establish a new and
different basis for his second attempt at removal
under either the federal officer or federal question
doctrines. Moreover, even if the Court were to have
jurisdiction, the Court would abstain and remand the
case to state court so that the trial may proceed.
A. Federal Question Jurisdiction
Under 28 U.S.C. § 1331, to determine whether
federal question jurisdiction exists, a court must look
to the complaint to decide whether the cause of action
is created by federal or state law. Mulcahey, 29 F.3d
at 151. If the cause of action is created by state law,
"federal question jurisdiction depends on whether the
plaintiffs demand 'necessarily depends on resolution
of a substantial question of federal law."' Id. (emphasis
in original).
This Court has already found that the instant
suit presents claims arising under the Maryland
Lawyer's Rules of Professional Conduct ("MLRPC"),
and that the Maryland Court of Appeals is the "ultimate
arbiter" of claims against attorney misconduct in the
State of Maryland. First Remand Order at 3-4. The
Maryland Court of Appeals "has original and complete
jurisdiction over attorney discipline proceedings in
Maryland." Attorney Grievance Comm'n of Maryland v.
O'Leary, 433 Md. 2, 28 (2013). Thus, the cause of
action is created by state law. The fact that some of
Rheinstein's alleged unethical actions occurred in a
number of federal cases "does not render the instant
case one presenting claims based upon federal law."
First Remand Order at 4.

App.13a

However, Rheinstein argues that this second
Notice of Removal "presents different grounds for
removal" based on (1) AGC's responses to Defendant's
interrogatories, and (2) AGC's corporate deposition
testimony from August 7, 2017. Notice of Removal ¶¶ 4,
28, ECF No. 1.
First, Rheinstein argues that AGC's interrogatory
responses show that AGC intends to litigate a federal
qui tam case in state court. Specifically, AGC's
response to Interrogatory No. 19 incorporates a document entitled "Petitioner's Schedule A," which provides
a list of Averments stating details about when and
how Rheinstein allegedly violated MLRPC rules.
ECF No. 1-3 at 16, ECF No. 1-4. Rheinstein contends
that seven of these Averments in Schedule A raise
questions of federal law which render his case removable to federal court: Averment Nos. 32, 36, 54, 56,
57, 66, and 67. Def.'s Opp. to Mot. for Remand at 9,
ECF No. 76.
These Averments list instances in which Rheinstein was alleged to have frivolously filed a suit in
violation of MLRPC Rule 3.1.2 For example, Averment No. 32 states that Rheinstein filed United
States of America Ex rei. Charles E. Moore v. Cardinal
Financial Company, L.P. et al. ("Qui Tam I'), in violation of MLRPC 1.1, 3.1, 8.4(a) and 8.4(d), and Averment
No. 36 states that Rheinstein filed United States of
America ex rei. Charles E. Moore v. Robert S. Svehlak,
et al. ("Qui Tam In in violation of the same provisions. Id.
2 MLRPC Rule 3.1 states that lain attorney shall not bring . . . a
proceeding, or assert or controvert an issue therein, unless there
is a basis for doing so that is not frivolous."

App.14a

Rheinstein argues that these Averments do not
provide any information about the bases for ACM's
allegations regarding these qui tam cases. Rather,
he concludes, these Averments can only "conclusively
establish" that "Plaintiff is actually making claims
about the merits of those [qui tam] cases." Notice
of Removal ¶ 26, ECF No. 1. Under Rheinstein's
reasoning, "[a] claim that an action is 'frivolous' or
violates MLRPC 3.1 is inherently a claim about its
merits." Id. at 17 n 21. Thus, he argues that Schedule
A and the response to Interrogatory No. 19 necessarily
show that ACG is inappropriately attempting to litigate
a federal qui tam action in state court.3 /d.11 26.
Second, Rheinstein offers corporate deposition
testimony from AGC purporting to show that AGC
intended to litigate the merits of a federal qui tam
action in state court. Def.'s Opp. to Mot. for Remand
at 12-13, ECF No. 76. Rheinstein quotes testimony in
which AGC's corporate designee, when asked about the
"facts" that rendered the filing of the attorney
misconduct complaint, referred to the "facts as provided
in the pleadings" of the Qui Tam I action. Id. at 13.
Thus, Rheinstein reasons, AGC is "asserting [that]
the filing of Qui Tam I violated MLRPC 3.1," and that
AGC's testimony conclusively established that it is
"seeking to litigate the merits of Qui Tam I because
there is no way that Plaintiff can prove its claim
. . . unless Qui Tam I was 'frivolous."' Id. at 15.
Rheinstein's attempt to conflate his attorney
misconduct proceeding with the underlying federal
cases is improper. The Averments referenced in the
3 The same argument appears to apply for the remainder of the
Averments at issue. ECF No. 1 at ¶ 34-42; ECF No. 76 at 9-11.

App.15a

interrogatory responses and Schedule A simply allege
that the filing of the qui tam actions is part of the
conduct constituting a violation of several MLPRC
Rules, including the rule regarding frivolous pleadings
by attorneys.
Attorney misconduct proceedings do not litigate
the merits of the underlying cases that gave rise to
those proceedings. Indeed, courts are able to evaluate
whether a filed claim is frivolous without making a
ruling on the merits of the underlying case, and without
providing a remedy to the parties in that case. See,
e.g., Attorney Grievance Comm 'n of Maryland v. Ucheomumu, 450 Md. 675, 711 (2016) (finding a violation
of MLRPC 3.1 without resolving the underlying defamation litigation); Attorney Grievance Comm'n v.
Worsham, 441 Md. 105, 128 (2014) (finding a violation of MLRPC 3.1 without resolving the underlying
tax litigation).
AGC argues that the Averments simply "correlate
the factual allegations in the Petition with the Rules
of Professional Responsibility and identify the cases[
in which violations are alleged to have occurred."
Pl.'s Mem. Of Law at 6, ECF No. 681. Moreover, AGC
argues, the Averments are presented to "establish a
course of conduct by which the Respondent used the
threat of lawsuits and the filing of [the] same as
leverage to attempt to obtain settlement funds." Pl.'s
Supp. Mem. Of Law at 5, ECF No. 70. See also Pl.'s
Reply Mem. at 2-3, ECF No. 81. According to AGC,
the Averments are part of a story, and allegedly show
specific instances in which Rheinstein "exceeded the
bounds of zealous advocacy" by "filing multiple
meritless motions, filing multiple qui tam actions . . . ,
threatening to sue a law firm, threatening to file a

App.16a

complaint with the Attorney Grievance Commission
if an appeal was not dropped, repeatedly filing motions
that did not comply with the Rules, accusing counsel
of unethical conduct and then suing him and using
coercive and offensive means in an attempt to effect a
settlement."4 Pl.'s Reply Mem. at 4, ECF No. 81.
The plain purpose of these Averments is to
demonstrate the existence or pattern of attorney
misconduct, not to litigate the merits of a federal qui
tam action.5 To follow Rheinstein's reasoning would
mean that state courts would not be able to exercise
jurisdiction over most, perhaps all, alleged attorney
misconduct where the misconduct occurred in relation
to proceedings in federal court.
Rheinstein also argues that his claims present a
federal question because the interpretation and
application of state ethical rules in federal court is a
question of federal law, citing In Re Snyder, 472 U.S.
634, 645 (1985). But his reliance on this case is
unavailing. In Re Snyder involved a federal court
disciplining a lawyer under Rule 46 of the Federal
Rules of Appellate Procedure—a federal court sanction.
It did not involve a state attorney disciplinary agency
petitioning a lawyer under the state's own professional
4 Rheinstein's argument that each of these Averments constitutes a distinct claim that should be evaluated for separate federal jurisdiction is irrelevant. ECF No. 76 at 2. The Court does
not find federal jurisdiction in any of the seven Averments.
5 Rheinstein also argues that because the Qui Tam I case is
supposedly "pending," ACM's decision to bring a disciplinary
proceeding prior to its conclusion is a "transgression from its
own policy of abjuring involvement in on-going litigation." ECF
No. 1 at ¶ 27. This argument is irrelevant to the analysis of
whether a federal question exists in the instant case.

App.17a

conduct rules. The case simply states that a federal
court should look to federal standards for issuing federal sanctions. It does not remove a state court's
ability to rely upon its own professional responsibility
rules and interpretations for disciplining its own
attorneys. See Attorney Grievance Comm. v. Pak, 400
Md. 567, 600 (2007); see also Md. Rule 19-308.5 ("[A]n
attorney admitted by the Court of Appeals to practice
in this State is subject to the disciplinary authority of
this State, regardless of where the attorney's conduct
occurs.").
Finally, Rheinstein argues that with regard to
the Qui Tam I and Qui Tam II cases, he has federal
defenses relating to "procedural due process, substantive due process, and equal protection." Notice of
Removal ¶ 46, ECF No. 1. However, "'a case may not
be removed to federal court on the basis of a federal
defense' . . . even if the complaint begs the assertion
of the defense" and even if "the defense is the only
question truly at issue in the case." Pinney v. Nokia,
Inc., 402 F.3d 430, 446 (4th Cir. 2005), citing
Franchise Tax Bd. of State of Cal. v. Constr. Laborers
Vacation Tr. for S. California, 463 U.S. 1, 13 (1983).
Accordingly, the Court does not have federal question jurisdiction over the instant case.
B. Federal Officer Removal
Under 28 U.S.C. § 1442(a), a "civil action or criminal prosecution" may be removed to federal court
when filed against "any officer (or any person acting
under that officer) of the United States or of any
agency thereof, in an official or individual capacity,
for or relating to any act under color of such office . . . ."

App.18a

For reasons discussed more fully in the First
Remand Order, this Court has found that it does not
have federal officer jurisdiction over the instant case.
First Remand Order at 5-6. In short, Rheinstein's
role as a relator in the qui tarn actions cannot be
equated to that of a federal prosecutor or federal
agent taking direction from a Government officer. Id.
at 6. For the same reasons, his role in assisting a
"Bankruptcy Trustee" in Bankruptcy Court is also
insufficient to confer federal jurisdiction. Def.'s Opp.
to Mot. for Remand at 23, ECF No. 76.
Rheinstein's attempt to revive this federal officer
removal argument does not rest on a different basis
for removal, nor does it contain new facts that would
now support the prior theory of removal. Cain, 2009
WL 539975, at *2 (N.D.W. Va. Mar. 4, 2009).6
•

Accordingly, the Court does not have federal question jurisdiction over the instant case.
C. Federal Abstention Principles
For reasons discussed more fully in the First
Remand Order, even if this Court were found to have
the ability to exercise jurisdiction over the instant
case, it would abstain to exercise that jurisdiction
because of the State's "extremely important interest"
in "maintaining and assuring the professional conduct
6 Rheinstein's reliance on Kolibash is unavailing. In Kolibash,
the 4th Circuit held that removal to federal court in an attorney
discipline proceeding was proper because it was brought against
a U.S. Attorney and implicated a "colorable claim of [official]
immunity." Kolibash v. Comm. on Legal Ethics of W. Virginia Bar,
872 F.2d 571, 575 (4th Cir. 1989). Kolibash does not stand for
the proposition that all attorney discipline proceedings are
removable to federal court.

App.19a

of the attorneys it licenses." Middlesex Cty. Ethics
Comm., 457 U.S. at 433-34. So long as Rheinstein's
claims can be determined in state proceedings, and
"so long as there is no showing of bad faith, harassment,
or some other extraordinary circumstance that would
make abstention inappropriate," the federal courts
should abstain.7 Id. at 435.
No extraordinary circumstances exist in this case,
and no new allegations have been raised to change
the Court's prior conclusion that it should abstain
and remand the case. See First Remand Order at 7-8.
Indeed, the case for abstention is stronger on this
second Motion to Remand because exercising jurisdiction now would involve a severe "loss of time and
duplication of effort." Telco Commc'ns, Inc., 885 F.2d
at 1228. Defendant's instant Notice of Removal was
filed on 11:49 PM on Friday, September 1, 2017, before
the Labor Day holiday. Trial was set to begin in state
court the very next business day, Tuesday, September 5, 2017. To restart all proceedings in federal
court on the eve of trial would result in a waste of
judicial and party resources.
Accordingly, even if this Court has federal jurisdiction, this Court will apply federal abstention principles to abstain from exercising jurisdiction.

7 That AGC withdrew its abstention argument in the supplemental briefing does not bear on whether this Court can rely
on abstention principles to decline to exercise jurisdiction in
this case, even if jurisdiction exists. ECF No. 70 at 13.

App.20a

IV. Conclusion
For the foregoing reasons:
Plaintiff Attorney Grievance Commission of
Maryland's Motion to Remand for Lack of
Federal Jurisdiction [ECF No. 68] is
GRANTED.
By separate Order the Court shall remand
the case to state court.
SO ORDERED, this Wednesday, September 20,
2017.

/s/ Marvin J. Garbis
United States District Judge

App.21a

ORDER REMANDING CASE OF
THE DISTRICT COURT OF MARYLAND
(SEPTEMBER 20, 2017)
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF MARYLAND

ATTORNEY GRIEVANCE
COMMISSION OF MARYLAND,
Plain tiff,
v.
JASON EDWARD RHEINSTEIN,
Defendant.
Civil Action No. MJG-17-2550
Before: Marvin J. GARBIS,
United States District Judge.
For reasons stated in the Memorandum and Order
Re: Remand issued herewith:
This case, originally filed in the Circuit Court
for Anne Arundel County, Maryland as Attar,ney Grievance Commission v. Rheinstein,
Case No. C-02-CV-16-000597 and removed to
this Court therefrom is hereby REMANDED.
The Clerk shall take all action necessary to
effect the remand promptly.
The State Court may proceed with this case.

App.22a

4.

This Court does not award costs herein.

SO ORDERED, this Wednesday, September 20,
2017.

/s/ Marvin J. Garbis
United States District Judge

App.23a

MEMORANDUM AND ORDER RE: REMAND
OF THE DISTRICT COURT OF MARYLAND
(MARCH 17, 2017)
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF MARYLAND

ATTORNEY GRIEVANCE
COMMISSION OF MARYLAND,
Plaintiff;
v.
JASON EDWARD RHEINSTEIN,
Defendant.
Civil Action No. MJG-16-1591
Before: Marvin J. GARBIS,
United States District Judge.
The Court has before it Plaintiff Attorney Grievance Commission of Maryland's Motion for Remand
for Lack of Federal Jurisdiction [ECF No. 12] and the
materials submitted relating thereto. The Court finds
a hearing unnecessary.
I. Background
On February 17, 2016, the Attorney Grievance
Commission of Maryland ("AGC") filed, in the Maryland
Court of Appeals, a Petition for Disciplinary or
Remedial Actions [ECF No. 2] against Jason Edward

App.24a

Rheinstein ("Rheinstein"). On February 19, 2016, the
Court of Appeals of Maryland transmitted the Petition
to the Circuit Court for Anne Arundel County to hold
a judicial hearing pursuant to Maryland Rule 16-757.
[ECF No. 3] .
On May 23, 2016, Rheinstein filed a Notice of
Removal [ECF No. 5] in this Court. Rheinstein contends
that this Court can exercise jurisdiction over the case
by virtue of 28 U.S.C. § 1441 (federal question jurisdiction) and 28 U.S.C. § 1442 (federal officer jurisdiction).
By the instant motion, the AGC seeks remand due
to the absence of federal jurisdiction and, alternatively,
contends that even if there were federal jurisdiction,
this Court should abstain.
II. Jurisdictional Principles
Rheinstein, the party invoking federal jurisdiction,
has the burden of establishing that removal is proper
and that the Court has subject matter jurisdiction.
Mulcahey v. Columbia Organic Chemicals Co., 29 F.3d
148, 151 (4th Cir. 1994).
Removal statutes should be strictly construed,
and if "federal jurisdiction is doubtful, a remand is
necessary." Id.
Even there is federal jurisdiction; federal courts
must abstain from interfering in state proceedings
"absent extraordinary circumstances." Middlesex Cty.
Ethics Comm. v Garden State Bar Assn, 457 U.S. 423,
431 (1982).

App.25a

III. Discussion
As discussed herein, Rheinstein has failed to
establish that the Court can exercise jurisdiction over
the instant case. Moreover, even if the Court were to
have jurisdiction, it would abstain and remand the
case to proceed in state court.
A. Federal Question. Jurisdiction
Federal question jurisdiction is provided by 28
U.S.C. § 1331 which states:
The district courts shall have original jurisdiction of all civil actions arising under the
Constitution, laws, or treaties of the United
States.
To determine whether federal question jurisdiction
exists, a court must look to the complaint to decide
whether the cause of action is created by federal or
state law. Mulcahey, 29 F.3d at 151. If the cause of
action is created by state law, "federal question jurisdiction depends on whether the plaintiffs demand
`necessarily depends on resolution of a substantial
question of federal law."' Id. Federal question jurisdiction over a state law claim will arise if the claim
states a federal issue that is actually disputed and
substantial, "which a federal forum may entertain
without disturbing" the balance of federal and state
judicial proceedings. Grable & Sons Metal Products,
Inc. v. Darue Engineering & Mfg., 545 U.S. 308, 314
(2005).
The instant suit presents claims arising under
the Maryland Attorneys' Rules of Professional Con-

App.26a

duct. The fact that some—but by no means alll—of
Rheinstein's alleged unethical actions related to
cases in federal court2 does not render the instant
case one presenting claims based upon federal law.
The Maryland Court of Appeals is the "ultimate
arbiter of any claims concerning attorney misconduct
in the State of Maryland, and the rules and procedures
governing an Attorney Grievance action are predicated
upon the Court of Appeals having jurisdiction to hear
such a case." Attorney Grievance Comm. v. Pak, 400
Md. 567, 600 (2007); see also Md. Rule 19-308.5 ("[A]n
attorney admitted by the Court of Appeals to practice
in this State is subject to the disciplinary authority of
this State, regardless of where the attorney's conduct
occurs.")
Accordingly, the Court does not have federal
question jurisdiction over the instant case.
B. Federal Officer Removal

Federal officer jurisdiction is provided by 28
U.S.C. § 1442(a)(1) that permits the removal of "[a]
civil action or criminal prosecution that is commenced
in a State court and that is against . . . any officer (or

1 Moreover, even if all of Rheinstein's alleged unethical actions
had occurred in federal cases, the instant case would, nevertheless, not necessarily be within the federal question jurisdiction
of this Court.

•

2 The AGC Complaint alleges that in certain related cases in
federal and state court, Rheinstein filed frivolous complaints
and motions, sent profane and threatening emails to opposing
counsel, and in a hearing erroneously led a state court to believe
that the opposing party and its officers were under an investigation by the Department of Justice, among other things.

App.27a

any person acting under that officer) of the United
States or of any agency thereof, in an official or
individual capacity, for or relating to any act under
color of such office . . . ."3
Federal officer jurisdiction "must be predicated
upon averment of a federal defense." Mesa v. California,
489 U.S. 121, 139 (1989). In Kolibash v. Comm. on
Legal Ethics of W. Va. Bar, 872 F.2d 571, 574 (4th
Cir. 1989), the Fourth Circuit allowed removal of a
state disciplinary proceeding involving a United States
Attorney by liberally construing the defendant United
States Attorney's answer as "akin to pleading a defense
of [prosecutorial] immunity."
Rheinstein contends that, as counsel for the
relator4 in a qui tam proceeding under the False Claims
Act, 31 U.S.C. § 3729 et seq. ("FCA"), he acted as an
agent of the United States and that claims predicated
upon his acts as federal agent may be removed. See
Watson v. Philip Morris Companies, Inc., 551 U.S.
142, 151 (2007) ("Where a private person acts as an
assistant to a federal official in helping that official to
3 Removal is appropriate where the proceeding is a civil action
or a criminal prosecution, however a "disciplinary proceeding does
not function as a civil action because it does not involve two
parties, one seeking damages or equitable relief from another
. . Nor does a disciplinary proceeding function as a criminal
prosecution since punishment of an attorney is not the goal of
the disciplinary process." Matter of Doe, 801 F.Supp. 478, 483
(D.N.M. 1992). In the instant case, this disciplinary proceeding
does not qualify as a civil action or criminal prosecution.
4 Qui tarn relators are not officers of the United States; rather a
relator "is merely a representative agent of the Government,
not an appointed 'officer."' Friedman v. Rite Aid Corp., 152
F.Supp.2d 766, 771 (E.D. Pa. 2001).

App.28a

enforce federal law, some of these same considerations
may apply." (emphasis added)).
Although counsel for a relator is an agent for the
Government for standing purposes in an FCA case,
counsel is not subject to the same type of control that
a federal prosecutor is and does not take direction
from a Government officer.5 Moreover, Rheinstein has
failed to show that he "was required by the government
to take actions that subjected [him] to liability under
state law." Alsup v. 3-Day Blinds, Inc., 435 F.Supp.2d
838, 846 (S.D. Ill. 2006).
The U.S. District Court for the District of Maryland
has adopted the Maryland Rules of Professional
Conduct, thus there is no conflict between the ethical
duties Rheinstein owed as counsel for a relator and
that he owed as a member of the Maryland Bar. See
Local Rule 704 (D.Md. 2016).
The ethical misconduct claims asserted by the
AGC Complaint are not based on the fact that
Rheinstein was counsel in federal qui tam litigation.
In fact, Rheinstein is alleged to have engaged in a
course of unethical conduct in regard to related state
and federal cases.

5 Compare Winters v. Diamond Shamrock Chem. Co., 149 F.3d
387, 398 (5th Cir. 1998) (allowing removal under § 1442 in a case
against the manufacturers of Agent Orange because the Government exercised control over the composition and production
of Agent Orange and compelled the defendants to deliver it
under threat of criminal sanctions).

App.29a

Rheinstein has not presented any plausible federal
law defense. Moreover, Rheinstein's attempted reliance
upon 28 U.S.C. § 1442(a)(2) is unavailing.6
Accordingly, the Court does not have federal officer
jurisdiction over the instant case.
C. Abstention Principles
Even if this Court were found to have the ability
to exercise jurisdiction over the instant case, it would
abstain to exercise that jurisdiction.
The Supreme Court recognizes "a strong federal
policy against federal-court interference with pending
state judicial proceedings absent extraordinary circumstances." Middlesex Cty. Ethics Comm., 457 U.S. at 431.
Federal courts must abstain from interfering if the
state court proceedings "constitute an ongoing state
judicial proceeding," if the proceedings "implicate important state interests," and if there is "an adequate
opportunity in the state proceedings to raise constitutional challenges." Id. at 432.
The attorney disciplinary action against Rheinstein
is an ongoing state judicial proceeding involving important state interests in regard to the regulation of
6 28 U.S.C. § 1442(a)(2) provides removal for "[a] property holder
whose title is derived from any such officer, where such action
or prosecution affects the validity of any law of the United
States." Rheinstein contends—without presenting authority or
persuasive reasoning—that a state court would not have access
to records of the pertinent qui tam cases, as they are under seal
and subject to the control of the federal court, and would not
have the power to obtain testimony from key witnesses, such as
government agents. Nor has Rheinstein presented any plausible
basis for concluding that § 1442(0(2) is at all pertinent to the
instant motion.

App.30a

attorney misconduct. The state courts provide adequate
opportunity for Rheinstein to defend himself and to
raise any available constitutional issues. The instant
case presents no circumstances, much less extraordinary circumstances, warranting the exercise of federal
jurisdiction over the instant case.
Accordingly, were the Court to have found federal
jurisdiction, it would nevertheless have abstained
and remanded the case to proceed in state court.
V. Conclusion
For the foregoing reasons:
Plaintiff Attorney Grievance Commission of
Maryland's Motion for Remand for Lack of
Federal Jurisdiction [ECF No. 12] is
GRANTED.
By separate Order the Court shall remand
the case to state court.
SO ORDERED, on Friday, March 17, 2017.

/s/ Marvin J. Garbis
United States District Judge

App.31a

ORDER OF THE FOURTH CIRCUIT DENYING
PETITION FOR REHEARING EN BANC
(MARCH 11, 2019)
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

ATTORNEY GRIEVANCE
COMMISSION OF MARYLAND,
PlaintiffAppellee,
v.
JASON EDWARD RHEINSTEIN,
Defendant-Appellant.
No. 17-2127
(1:17-cv-02550-MJG)
Before: WILKINSON and MOTZ, Circuit Judges,
and TRAXLER, Senior Circuit Judge.
The court denies the petition for rehearing and
rehearing en bane. No judge requested a poll under
Fed. R. App. P. 35 on the petition for rehearing en bane.
Entered at the direction of the panel: Judge
Wilkinson, Judge Motz, and Senior Judge Traxler.
For the Court
/s/ Patricia S. Connor
Clerk

App.32a

NOTICE OF APPEAL
(SEPTEMBER 25, 2017)
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF MARYLAND
(Northern Division)

ATTORNEY GRIEVANCE
COMMISSION OF MARYLAND,
Plaintiff;
v.
JASON EDWARD RHEINSTEIN,
Defendant.
Civil Action No.: 1-cv-17-2550-MJG
NOTICE IS HEREBY GIVEN Defendant Jason
Edward Rheinstein ("Defendant") hereby appeals to
the United States Court of Appeals for the Fourth
Circuit from the orders entered in this action on the
22nd day of September, 2017 [ECF No. 90; the
"September 22nd Order"] and the 20th day of
September 2017 [ECF No. 87; the "September 20th
Order"[.1 The September 20th Order granted the
Emergency Motion for Remand for Lack of Federal
Jurisdiction [ECF No. 68] filed by Plaintiff Attorney
Grievance Commission of Maryland ("Plaintiff') on
1 The September 22nd Order was entered on even date herewith.

App.33a

September 5, 2017.2 The September 22nd Order denied
the Defendant's Emergency Motion to Alter/Amend the
September 20th Order [ECF No. 89] as well as the
alternative motion to stay the effect of the September
20th Order pending the filing of this Notice of Appeal.3
2 Defendant maintains that the September 20th Order and the
September 22nd Order were legally incorrect for a number of
reasons, which will be fully articulated by the Defendant on
appeal. See also Defts. Memo. of Law in Supp. of Rem. (ECF No.
82-1) (Articulating why this case was removable). The September
20th Order and the September 25th Order are reviewable on
appeal, in accordance with 28 U.S.C. § 1447(d), because this case
was removed, pursuant to, inter alia, 28 U.S.C. § 1442(a). Ripley
v. Foster Wheeler, LLC, 841 F.3d 207, 209 (4th Cir. 2016)
(citing Removal Clarification Act of 2011, Pub. L. No. 112-51,
125 Stat. 545, 546 (2011)) ("In 2011, Congress amended 28 U.S.C.
§ 1447(d) to allow appeals from remand orders pursuant to
§ 1442") (Emphasis added). Decatur Hosp. Auth. v. Aetna Health,
Inc., 854 F.3d 292, 296 (5th Cir. 2017) (citing Lu Junhong v.
Boeing Co. 792 F.3d 805 (7th Cir. 2015)) ("[I]f appellate review
of an 'order' has been authorized, that means review of the 'order.'
Not particular reasons for an order, but the order itself'). The
standard of review is de novo. Ripley, 841 F.3d at 209 ("We
review de novo issues of subject matter jurisdiction, including
removal").
3 Among other things, the Court, relying on In re Lowe, 102
F.3d 731 (4th Cir. 1996), erroneously concluded that it did not
have jurisdiction to reconsider or recall its remand order once
that order had been entered. The Court's reliance on Lowe was
misplaced. Lowe stands for the proposition that where 1447(d)
precludes review of a remand order, a Court may not reconsider
it once it has been entered. Lowe is inapposite in a case where
1447(d) expressly allows review of the remand order at issue.
See Barlow v. Colgate Palmolive Co., 772 F.3d 1001, 1012 (4th
Cir. 2014) (en bane) (citing Lowe, 102 F.3d at 734) ("In Lowe,
the district court remanded the case due to lack of complete
diversity between the parties, and the defendants moved for
‘`reconsideration"----not vacatur—of the remand order . . . This
Court then determined that, indisputably, [the language 'not

App.34a

Respectfully submitted,

/s/ Jason E. Rheinstein, Esq.
Federal Bar No.: 28433
P.O. Box 1369
Severna Park, MD 21146
(Tel) (410) 647-9005
(Fax) (410) 647-6135
bson@jer-consulting.com

Dated: September 25, 2017

reviewable on appeal or] otherwise' in § 1447(d) includes reconsideration by the district court"); Rodgers v. Gilbert, 2012 U.S.
Dist. LEXIS 13219 (W.D. Ky., Feb. 3, 2012) ("[T]he language of
the statute [amended § 1447(d)] is clear and leaves little room
for confusion. It appears to allow remands based upon § 1442
removals to be reviewed. Therefore, the Court is not barred
from reviewing its remand order on reconsideration") (Emphasis
added); Wingo v. State Farm Fire & Cas. Co., 2013 U.S. Dist.
LEXIS 104135 at *3 *5 (W.D. Mo., Jul. 25, 2013) (District court
had jurisdiction to reconsider remand order where CAFA
authorized appellate review); Dalton v. Walgreen Co., 2013 U.S.
Dist. LEXIS 75086 (E.D. Mo., May 29, 2013) (District court had
jurisdiction to reopen case and stay remand order where CAFA
authorized appellate review). C.f., Ruppel v. CBS Com., 701 F.3d
1176, 1179 Hilt denied CBS's motion, noting 28 U.S.C. § 1447(d)
stripped it of jurisdiction to reconsider the remand order. The
district court did not address the exception in that subsection
for cases, like this one, removed under section 1442") (Emphasis
added).

App.35a

PETITION FOR DISCIPLINARY
OR REMEDIAL ACTION [AGC COMPLAINT]
(FEBRUARY 17, 2016)
IN THE COURT OF APPEALS OF MARYLAND

ATTORNEY GRIEVANCE
COMMISSION OF MARYLAND,
Petitioners,
v.
JASON EDWARD RHEINSTEIN,
Respondent.
Misc. Docket AG No. 77,
September Term, 2015
The Attorney Grievance Commission of Maryland,
by Glenn M. Grossman, Bar Counsel, and Lydia E.
Lawless, Assistant Bar Counsel, its attorneys, files
this Petition for Disciplinary or Remedial Action
against Jason Edward Rheinstein, Respondent, and
represents to the Court as follows:
On December 8, 2015, Bar Counsel received
direction from the Attorney Grievance Commission to
file this petition pursuant to Maryland Rule 16-751(a).
The Respondent was admitted to the Maryland
Bar on December 15, 2005. At all times relevant hereto,
he maintained an office for the practice of law in Anne
Arundel County.

App.36a

Background
Imagine Capital, Inc. ("Imagine") is a private
commercial lender which finances residential rehabilitation projects in Maryland. Imagine's two officers
are Robert Svehlak and Neil Roseman.
In September 2008, Charles and Felicia Moore,
husband and wife, entered into a construction loan
agreement for $200,000 with Imagine. Mr. Moore
pledged four Baltimore City properties as collateral
for the loan. After $67,419.92 was disbursed to Mr.
1VIoore, he defaulted on the monthly interest payments.
In June 2009, Imagine, through its then-attorney, James Holderness, Esquire, filed a complaint for
confessed judgment. Imagine Capital, Inc. v. Charles E.
Moore, et al. Case No. 24-C-09-003634 in the Circuit
Court for Baltimore City (hereinafter "Imagine v.
Moore"). On June 12, 2009, the Circuit Court entered
judgments against the Moores in the amount of
$113,683.76 (principal, interest, attorneys' fees and
costs). The Moores did not retain counsel or otherwise
take any action during the 30 days allotted by the
Maryland Rules to vacate the confessed judgments.
In September 2009, Imagine and the Moores
reached an agreement whereby Mr. Moore conveyed one
of the collateral properties to Imagine at an agreed
value of $65,000 and signed a promissory note for
$20,000. When Mr. Moore defaulted on the agreement,
the original note terms resumed and Imagine sought
to collect the full amount due less the $65,000 value
of the conveyed property.
In November 2010, Imagine began collection
efforts. Subsequently, in November 2010 and April
2011, Mr. Moore, pro se, sent two letters to the court

App.37a

that were treated as motions to vacate and revise the
judgment, respectively. Both motions were denied and
Imagine resumed collection efforts.
The Respondent Enters His Appearance
In October 2011, the Moores retained the Respondent to represent them in challenging the confessed judgments. The Respondent developed an elaborate
conspiracy theory involving Imagine, its principals,
attorneys, lenders and other associates. In October
2011, the Respondent embarked on a crusade to prove
his theory. His conduct exceeded the bounds of zealous
advocacy. As outlined below, he threatening those he
believed to be co-conspirators, filed countless frivolous
papers and general engaged in vexatious litigation.
On October 18, 2011, more than two years after
the confessed judgments were entered, the Respondent
entered his appearance on behalf of the Moores in
Imagine v. Moore. He filed a motion to revise and
vacate the judgments 1 and memorandum in support
alleging the judgments were obtained by the perpetration of a fraud and, pursuant to Maryland Rule 2535(b), should be vacated. On October 31, 2011,
Imagine's then-counsel, Jeffrey Tapper, Esquire, filed
an opposition. A hearing was scheduled for December
7, 2011.
In November 2011, the Respondent filed a
complaint against Mr. Tapper with the Attorney
1 The Motion was styled "Motion to Open, Modify, or Vacate
Confessed Judgments, or in the Alternative, Motion for Order of
Satisfaction; and Motion to Open, Modify, or Vacate Orders of
Garnishment; and Motion to Enjoin Further Debt Collection
Proceedings"

App.38a

Grievance Commission. Approximately one week before
the hearing, Mr. Tapper withdrew his appearance citing
a conflict due to the grievance.
The December 2011 Hearing
Imagine then retained Troy Swanson, Esquire
as successor counsel and a hearing was held on
December 7 and 8, 2011 before the Honorable Emanuel
Brown.
During the hearing the Respondent interjected
irrelevant and unsubstantiated accusations against
Imagine and its members regarding an elaborate fraud
scheme. The Respondent leered at Mr. Svehlak during
the proceeding and led the court to believe that Imagine
and its officers were under investigation by the
Department of Justice.
Mr. Svehlak invoked his Fifth Amendment
right to remain silent. At the conclusion of the hearing,
the court vacated the confessed judgments.
Imagine Retains Bowie & Jensen
In December 2011, Imagine retained Bowie
& Jensen and Matthew Hjortsberg, Esquire, to file
an appeal and defend various threatened claims made
against them by the Respondent. On January 3, 2012,
Imagine filed a Notice of Appeal to the Court of Special
Appeals.
On January 25, 2012, the Respondent began
a series of increasingly erratic email correspondence
with Bowie & Jensen in which he threaten to sue the
firm and report Mr. Hjortsberg and his associate,
Lisa D. Sparks, Esquire, to the Attorney Grievance

App.39a
Commission if the appeal was not dropped.2 Excerpts
from the Respondent's emails include the following:
We are going to proceed with the letter to
the Maryland Attorney Grievance Commission
at this time to simply advise of this case and
our concerns over the ethical issues surrounding possible attempts to reinstate this debt
based upon the testimony and the facts in
this case.
[***
Because I believe the transcript and an audit
of your client's bank records would support
this notion, I believe this is not only unethical, but that you are sufficiently aware of
the background facts that you, Ms. Sparks
and Bowie & Jensen can be sued for facilitation of fraud upon the first filing of your
appeal documents. In the unlikely event the
fraudulent judgments would be reinstated on
a procedural technicality, I also believe you
would be liable for the damages . . . My
exchange with the FBI last Friday was a
telephone call with the assigned agent not a
meeting.
[*** ]
We are prepared to add your firm as a
defendant when the document is filed. You
won't be their first lawyer that is also a
defendant. We're not going to add you on.

2 The Respondent never filed a complaint against either attorney with the Attorney Grievance Commission.

App.40a

RICO, so no worries there. You'll be added
to our fraud and aiding and abetting counts.
[***[
Your actions as a law firm are unethical and
constitute facilitation of fraud . . . I will
remind you that our suit is already at 28
Defendants (including several attorneys)
and that there still may not be enough to
pay a likely award by a Baltimore City jury
in this case. Therefore, my client has a
strong incentive to add any additional defendants against whom he has a good faith
claim. Should you choose to proceed with
this illicit strategy, please advise if you have
counsel and whether they can accept service
on your behalf.
[***[
You are assisting your client in an unlawful
manner by attempting to cause the entry of
a knowingly fraudulent confessed judgment
against Mr. and Mrs. Moore in bad faith
and without substantial justification. We
also believe that your attempts to have a
knowingly fraudulent confessed judgment
entered against Mr. and Mrs. Moore constitute
actionable conduct and have at this point
created liability on the part of you, Ms.
Sparks, and Bowie & Jensen, LLC.
16. Additionally, the Respondent launched an
ad hominem attack on Mr. Svehlak's character.

App.41a

Bowie & Jensen Retains Ward B. Coe, III, Esquire
As a result of the threats, Bowie & Jensen
put its carrier on notice, retained Ward B. Coe, III,
Esquire, as legal counsel, and counseled their clients
about the perception that the Respondent was depriving
them of their choice of counsel.
On February 14, 2012, Mr. Coe wrote to the
Respondent and implored him to cease threating Bowie
& Jensen. Mr. Coe summarized the Respondent's improper threats, outlined the research indicating that
the appeal was not frivolous and provided citations to
authorities standing for the proposition that threatening attorney grievance complaints to gain an advantage
in litigation violates the Maryland Lawyers' Rules of
Professional Conduct.
On March 21, 2012, Mr. Hjortsberg filed a
complaint with the Attorney Grievance Commission.
Filings in the Appellate Courts
On April 16, 2012, the Respondent filed a
frivolous Petition for Writ of Certiorari in the Court
of Appeals. In support of his Petition, he argued that
the case was an "extraordinary case of public policy"
with an "almost unbelievable record . . . arguably the
most shocking confessed judgment action to ever appear
in Maryland's appellate courts." The Respondent,
contrary to the Maryland Rules, included substantial
documentation and information not contained in the
record. In addition to being frivolous, the Petition
violated Rules 8-112(c) and 8-303(b).
On April 20, 2012, the Respondent filed a
frivolous motion to dismiss the appeal in the Court of

App .42a

Special Appeals arguing that the appeal was based
upon a non-final order.
On May 3, 2012, the Court of Special Appeals
stayed the appeal pending resolution of the Petition
for Writ of Certiorari.
On May 4, 2012, despite the stay and his
pending Petition, the Respondent filed a second
frivolous Motion to Dismiss Appeal in the Court of
Special Appeals arguing that Imagine failed to order
transcripts and failed to ensure the timely transmittal
of the Record and, therefore, the appeal should be
dismissed.
On or about May 9, 2012, the Respondent filed
"Petitioner's Reply to Respondent's Answer to Petition
for Writ of Certiorari" in the Court of Appeals. The
filing was frivolous and again, contained information
outside the record contrary to the Maryland Rules.
On May 17, 2012, despite the stay and no
briefing scheduling having been issued, the Respondent
filed a 49-page "Preliminary Brief of the Appellees
and Memorandum in Support of Motion to Dismiss
Appeal." The Respondent phrased the question to the
Court as follows: "Whether the Due Process Clause of
the U.S Const., amend. XIV, § 1 requires that the
Appellant's failure to fund an escrow account that
served as the fundamental consideration for the
Appellees' execution.of an agreement containing waivers
of their due process rights, demonstrated a lack of
consensus ad item resulting in a failed agreement
and void waivers of due process rights." The Respondent
cited to the 5th and 14th Amendments of the United
States Constitution as well as 42 U.S.C. § 1983 and
42 U.S.C. § 1985. In addition to violating Maryland

App.43a

Rule 8-503(d), the filing was frivolous. In support of his
"Preliminary Brief' the Respondent filed an extract
containing numerous documents that were not part
of the Circuit Court record in violation of the Maryland
Rules.
Also on May 17, 2012, the Respondent filed
"Supplementary Exhibits to Petition for Writ of Certiorari" in the Court of Appeals. The filing was
frivolous and contrary to the Maryland Rules.
On May 21, 2012, the Court of Appeals denied
the Petition for Writ of Certiorari. The Respondent,
on May 23, 2012, filed a frivolous "Motion to Resume
Proceedings and Renewed Motion to Dismiss Appeal"
in the Court of Special Appeals."
The Respondent's Continued Threats
and Abusive Behavior
On May 28, 2012, the Respondent emailed Mr.
Coe and stated, inter alia:
It is my intention to sue Mr. Hjortsberg
personally for defamatory statements he made
against me in a March 21, 2012 letter in
which he attempted to accuse me of knowingly false ethical violations for allegedly
misrepresenting something about 'investigations' to a trial court during a December
2011 Motion Hearing . . . Mr. Hjortsberg, an
unethical and incompetent attorney, straining to fabricate an issue for a meritless
appeal to cover up a client's scam involving
financial institutions, unapologetically stated
five times in his 11-page letter that I misrepresented something about `investigation(s)'

App.44a
during that hearing . . . I seek redress in the
form of reasonable compensation, an apology
letter, and an agreement that Mr. Hjortsberg
will not intentionally defame me again . . .
Please respond by COB on May 29, 2012 to
advise whether discussions about this matter
would be productive. If not, my suit will be
filed in the Cir. Ct. for Balt. Co. against Mr.
Hjortsberg personally.3
29. On May 29, 2012, the Respondent emailed a
"settlement offer" to Mr. Hjortsberg purportedly on
behalf of the Moore. In his offer, he stated, inter alia:
best way to be rid of this for all is not to sue
anyone . . . the way I look at it, there are
two potential law firm insurance policies
. . . swanson's and [Bowie & Jensen's] . . . if
they are big enough . . . we can avoid a suit,
but if not . . . we can't . . . better off filing
because we lose a lot if we don't file . . . then
again, my guy gets paid quicker and that's a
benefit . . . I'm not an expert, but I can think
of 10 reasons for malpractice claims by these
guys against your firm and Swanson's firm
too . . . I always thought doing this quietly
might be best way for all . I said something
about law firm malpractice insurance for
your clients' past lawyers because it might
be enough to get there. . . . That was before
you made the same mistakes as those guys
. . . Although everything we have is also
with feds, I still think its better to settle
3 As of the date of filing this Petition, the Respondent has not
filed suit against Mr. Hjortsberg.

App.45a

(especially for Roseman) and get my guy out
now.
The Respondent then relayed the offer from the
Moores to settle the case for $5 million. (all sic in original).
On May 30, 2012, Mr. Coe wrote to the Respondent regarding his threat to sue Mr. Hjortsberg for
defamation. The Respondent, by email later the same
day, forwarded a copy of a complaint to be filed by
close of business that same day.
The Respondent Files Suit in the Circuit Court
On May 30, 2012, the Respondent filed a
frivolous complaint in the Circuit Court for Baltimore
City on behalf of the Moores (Moore v. Svehlak et al.
Case No. 24-C-12-335) (hereinafter "Moore v. Svehlak').
The complaint named twenty-eight (28) defendants and
alleged that Imagine, acting in concert with other
defendants, engaged in an elaborate fraud scheme.
The 30-count complaint sought millions of dollars in
compensatory and punitive damages for various causes
of action including fraud, civil conspiracy, RICO,
"deprivation of civil rights", aiding and abetting,
intentional misrepresentation, negligent misrepresentation, breach of fiduciary duty, breach of contract, professional negligence, declaratory judgment,
quiet title, "violation of Md. Comm. Law Code Ann.
§ 12-801 et seq.", constructive trust, unjust enrichment
and abuse of process. Service was effectuated in the
months that followed.

App.46a

The Respondent Files Suit in the United States
District Court for the District of Maryland
On June 20, 2012, the Respondent, on behalf
of Mr. Moore, filed a Qui Tam action in the U.S. District
Court for the District of Maryland (United States of
America Ex rel. Charles E. Moore v. Cardinal Financial
Company, L.P et al. Case No. 1:12-cv-01824) (hereinafter "Qui Tam I"). The complaint named 10 defendants including Mr. Svehlak and alleged mortgage fraud
and violations of the false claims act.
The Respondent's Continued Threats
and Abusive Behavior
On July 6, 2012, the Court of Special Appeals
erroneously vacated the appeal. Imagine filed a Motion
to Reconsider.
On July 13, 2012 at 9:22 a.m., the Respondent
emailed Mr. Coe and stated, inter alia:
Mr. Hjortsberg and Bowie & Jensen, LLC are
now liable for the following potential counts:
(1) civil conspiracy (2) 42 USC 1983, 42 USC
1985, (3) Malicious prosecution, (4) abuse of
process, (5) RICO . . . Please advise if there
is any interest in settling this matter. Also,
please instruct your client to place a litigation hold on any and all documents in his
possession concerning the Imagine Capital
matter . . . Please advise if Bowie & Jensen,
LLC would have any interest in settlement
negotiations pertaining to their role in this
matter.
On July 13, 2012 at 5:28 p.m., the Respondent
emailed Mr. Coe and stated, inter alia:

App.47a

As a follow-up to my email this morning,
please provide the following as soon as
possible: (1) An indication as to whether
your clients are interested in sitting down
and discussing settlement possibilities for
any liability they may have arising out of
the Imagine Capital matter. Should you and
your clients wish to sit down and discuss,
we can review with you some of the compelling
evidence with respect to Imagine Capital's
Ponzi scheme and shell property mortgage
fraud scam, and the fact that we believe Mr.
Hjortsberg, Tina Gentile, and perhaps Lisa
Sparks conspired with Imagine Capital,
Svehlak and Roseman to cover it up . . . (3)
Also, please state whether you can accept
service of summonses and/or subpoenas for
Bowie & Jensen, LLC, Matthew Hjortsberg,
Tina Gentle, Lisa Sparks and any other
parties associated with Bowie & Jensen,
LLC. As I have stated previously, I am not
inclined to sue Ms. Sparks or Ms. Gentle,
but I have questions for Ms. Gentle specifically
with regard to two specific matters that
pertained to things Bowie & Jensen did during
the appeal.
The Respondent Files a Second Suit in the United
States District Court for the District of Maryland
36. Also on July 13, 2012, the Respondent filed
a second Qui Tam action in the U.S. District Court
naming 24 defendants including Mr. Svehlak, Mr.
Roseman and Imagine Capital (United States of
America ex rel. Charles E. Moore v. Robert S. Svehlak,

App.48a

et al. Case No. 1:12-cv-02093) (hereinafter "Qui Tam
II").
The Respondent's Continued Threats
and Abusive Behavior
37. On July 18, 2012 at 3:28 pm., the Respondent
emailed Mr. Hjortsberg and stated, inter alia:
I am also going to politely ask you and Bowie
& Jensen, LLC to resign from representation
of Imagine Capital, Robert Svehlak and Neil
Roseman, effective immediately, following
the withdrawal of your Motion and dismissal
of Imagine Capital's appeal. I think you will
be conflicted from representing them in future
matters pertaining to my clients or the subject mortgages.
[***[
So, what's the problem? Its your intent and
attempt to conceal your client's criminal conduct in an extension of a wrongful civil proceeding that was initiated, at least in part,
to obtain money to service debt on fraudulent mortgages and stave off potential exposure of the mortgages themselves. Hence,
your 'defense' strategy was effectively to
keep up the 'charade,' or 'stay the course'
knowing your client's conduct was both
criminal and wrongful. On Jan 5, you said
yourself something to the effect of, 'I know
everything . . . far more than any other
attorney who represented them.' That is the
part that, at least in theory, turns defense
attorney to defendant . . As you consider

App.49a
the rhetorical and perhaps debatable question that follows, please remember the old
adage—ethics is doing the right thing when
nobody is watching. Was your strategy an
unethical attempted cover up or just a lawyer trying to do his job?
38. On July 20, 2012 at 11:13 a.m., the Respondent emailed Mr. Coe and stated, inter alia:
Please pardon my French but I can't wait to
see matt hjortsberg's balls shoved down his
fucking threat . . . pardon me again, we could
turn hjortsberg fucking upside down, chew
him up and spit him out in so many pieces
you cannot imagine . . . again excuse my
French, he was `s000 smart, a real fuckin
genius . . . ' Although I do not mean to be
disrespectful, and perhaps he's an excellent
construction attorney—e.g. he definitely
knows far more about procedural rules that
I do, he was horrible in this case . . . Does
he like managing that law firm? His partners
are not going to be happy, especially after
I sent several messages to their founding
member about the case . . . Indeed Matt
Hjortsberg should be disbarred, but I'm not
the bar counsel and my duty runs to
someone else—the Moores. Mr. Hjortsberg
knows he is in trouble . . . he's known for
awhile this was a mistake . . . I hope he's
lost sleep about it . . . he should have . . .
There are many potential causes of action
. . . let's take rico for one . . . most civil rico
cases are a bunch of crap, this one isn't . . . a
jury will hang matt hjortsberg, no less than

App.50a
they would his clients. The media, the public,
and the bar will crucify him . . . think about
the economy and type of fraud he attempted
to conceal . . . the amount, etc. People are
hurting out there and they would view
hjortsberg's 'defense' strategy quite poorly.
There's an unserved lawsuit sitting in the
cir ct for balt. city. Its case 24C12003357.
There are 28 defts. RICO count is $17M
($5M trebled to $15. + $2M in punitive
damages) . . . nothing about matt Hjortsberg
is yet in any lawsuit. Some defts know about
the unspoken subject and its briefly referenced in the complaint but its not fleshed
out because that complaint was written
primarily in dec and jan. We've been waiting
months to kick off our lawsuit, it was
delayed for this very conversation. Hjortsberg
and his firm are far easier defts (except
maybe for his clients) than anyone in that
case (many more culpable for my clients'
injuries and some pretty corrupt, but none
nearly as easy). The claims against Hjortsberg
and his firm are like out of a textbook . . . just
like my prelim brief . . .

App.51a

By COB today, I want a response to take to
my client . . I am authorized to offer $5M
for a global settlement of this case. I will
take any reasonable offer to my clients. We
haven't discussed a number for a partial
settlement, but my clients are open to one
. . . if it is within hjortsbergs policy limits,
hed be damn smart to go for a global . . .
With my proposal, Mr. Hjortsberg and his
firm need admit no wrong or no liability. We
can have complete confidentiality (we would
still have to deal with his disingenuous bar
complaint which I think may still be under
review, but we can do it later). Not a cent of
proposed settlement money may come from
Mr. Hjortsberg's clients.
(all sic in original).
On July 24, 2012, Mr. Coe wrote to the Respondent and stated:
Your email was laced with invective and
profanity, and included expressions which
could be interpreted as threatening physical
violence. I am certain that you did not
intend those expressions to be interpreted
that way. Regardless of your intent, however, your- conduct comprises misconduct
that is prejudicial to the administration of
justice under Rule 8.4 of the Rules of Professional Conduct, and must cease immediately. It also violates about half the rules of
the MSBA Code of Civility, a copy of which I
have enclosed.
The Respondent replied:

App.52a

I think you know that the profanity, while
regrettable, was a figure of speech, and
obviously not a threat of physical violence.
Its a not threat at all, other than it is our
position he will lose badly in a court of law.
Once again, I apologize for the unprofessional
tone. What this guy did was a violation of
MRPC 8.4, among several others. It is very
angering. Simple emails, although unprofessional in tone, are not prejudicial to the
administration of justice . . . I promise to
keep the tone civil from this point forward,
and assure you that there were no threats of
anything other than a possible lawsuit.
41. On July 26, 2012 at 7:43 p.m., the Respondent
emailed Mr. Coe and stated, inter alia:

I

still have not heard from you about Mr.
Hjortsberg conspiring with his clients to
continue knowingly false civil proceedings
against the Moores with the intent to conceal
mortgage fraud, bank fraud and money laundering.
Hjortsberg has been target [defendant] #1
for this case since January . . . We do not
want to sue Bowie & Jensen, LLC and put
Mr. Hjortsberg through all that misery. I
know his wife has been sick. I know he just
got promoted last year. He's well-respected.
He doesn't need to be tied to a big mortgage
fraud scam. His reputation will never
recover. I feel bad that Hjortsberg is liable
in this case . . . There are many other causes
of action to hang this guy on too: 1983, civil
conspiracy, abuse of process, and of course

App.53a

after he ultimately loses, malicious prosecution. I am sure there are others we can come
up with. As I told him in January, his representation and intent was the equivalent of
helping a client bury a murder weapon. In
this case there is another word for it, racketeering. Hopefully, this metaphor is [a] bit
easier for you to understand.
On July 31, 2012, Bar Counsel wrote to the
Respondent and asked him to explain his July 20, 2012
email to Mr. Coe.
On August 1, 2012, the Respondent sent a
series of emails to Bar Counsel in which he stated,
inter alia:
Things are not always what they appear.
Although my emails have not always sounded
professional, the message has always been
the same . . . My emails simply asked if his
firm wanted to settle his potential liability
arising out of his intent to conceal this mortgage fraud scam. It's a reasonable question
because he has liability for attempting to
violate my clients' due process rights in a false
civil proceeding to cover up a major mortgage fraud scheme. We would accept a
nickel from his clients (it's all stolen money),
we would from Mr. Hjortsberg.
Filings in the Appellate Courts
On July 27, 2012, the Court of Special Appeals
granted Imagine's Motion for Reconsider and entered
an order vacating the July 6, 2012 order dismissing
the appeal.

App.54a

On. August 8, 2012, the Respondent filed a
frivolous Motion to Reconsider the Order granting
Imagine's Motion to Reconsider and reinstating the
appeal in the Court of Special Appeals.
On August 10, 2012, Mr. Coe wrote to the
Respondent and catalogued his numerous threats and
inappropriate conduct and demanded he cease threatening Bowie & Jensen, its attorneys and employees.
On August 20, 2012, the Respondent wrote
to Mr. Coe and stated, inter alia:
As someone licensed to practice law in seven
states and the District of Columbia, I would
never accuse an attorney (especially one I
have never met) of the type of wrongdoing
that I believe to be implicated in this case,
unless I firmly believed there was substantial
basis to do so. Even if it turns out my beliefs
are erroneous (which is highly unlikely), no
ethical violations were presented by my
emails because there is a good faith basis for
the belief. My one regrettable email, which
used figure of speech that were less than prudent, were expressions of MY opinion about
the strength of the evidence in this case.
On August 22, 2012, the Respondent sent a
16-page letter to the Honorable Peter B. Krauser,
Chief Judge of the Court of Special Appeals, in which
he accused Mr. Hjortsberg, his associate and nonattorney members of his staff of misconduct including
having "ex parte" communications with the clerk's
office in an attempt to "manipulate the trial court
record" and "manufacture arguments for appellate

App.55a

review surrounding the void, erroneously-issued and
unrecorded May 20, 2011 Order."
On September 14, 2012, the Court of Special
Appeals denied the Respondent's Motion to Reconsider
and the Respondent filed a second frivolous Petition
for Writ of Certiorari in the Court of Appeals.
On October 2, 2012, Mr. Hjortsberg filed
Appellants' brief asking the court to consider the
following: "Did the Circuit Court err in finding clear
and convincing evidence of extrinsic fraud sufficient
to vacate the judgment under Maryland Rule 2-535(b)?"
On October 11, 2012, the Respondent filed a
"Supplemental Petition for Writ of Certiorari" in the
Court of Appeals and attached, in support, a copy of
the record extract filed in the Court of Special Appeals
that was the subject of his pending motion to strike.
The filing was frivolous and not in compliance with
the Maryland Rules. The Respondent filed, contemporaneously, a frivolous "Motion to Replace Defective
and Non-Compliant Record Extract" in the Court of
Special Appeals.
On November 19, 2012, the Court of Appeals
denied the Second Petition for Certiorari.
On December 12, 2012, oral argument was
heard in the Court of Special Appeals.
Circuit Court Suit Removed to U.S. District Court
On September 12, 2012, a number of the
Defendants in the Moore v. Svehlak matter filed a
Notice of Removal and the case was removed to the
U.S. District Court. Subsequently, the Respondent
filed a motion to remand and the defendants filed a

App.56a

series of motions to dismiss and/or motions for summary
judgment.
On December 12, 2012, while the Respondent
and Mr. Hjortsberg were in the Court of Special Appeals
waiting for the case to be called for argument, the
Respondent sent Mr. Hjortsberg an email of his 68page "Memorandum in Support of Plaintiffs' Emergency
Motion to Disqualify the Imagine Defendants' Counsel,
et al." to be filed in Moore v. Svehlak. The Respondent
also sent a copy of the motion to Mr. Coe and asked
whether Mr. Hjortsberg "is leaving the federal case
voluntarily."
The Respondent filed the frivolous Motion and
Memorandum on December 14, 2012. He argued that
Mr. Hjortsberg and. Bowie & Jensen are potential coconspirators and are, therefore, disqualified.
On December 17, 2012, the U.S. District
Court, sua sponte, struck the Respondent's Motion and
Memorandum as they were in violation of Local Rule
105.3 prohibiting the filing of Memorandum longer
than 50-pages without leave of court.
The Respondent's Continued Threats
and Abusive Behavior
On December 28, 2012, the Respondent sent
Mr. Coe a 13-page letter outlining the "fallacies" of Mr.
Hjortsberg legal strategy, reiterated that Mr. Hjortsberg was "complicit in the very same fraud as [his]
clients", threatened to re-file the Motion to Disqualify
and then asked if Mr. Hjortsberg would be interested
in discussing settlement.

App.57a

The Moores File for Bankruptcy
On February 20, 2013, before the Court of
Special Appeals issued its ruling, the Moores filed a
voluntary Chapter 7 bankruptcy petition and the Court
of Special Appeals matter was stayed. Craig L.
Holcomb, Esquire, represented the Moores in the
bankruptcy court. Marc H. Baer was appointed trustee
of the bankruptcy estate.
On February 25, 2013, the Respondent e-mailed Mr. Hjortsberg. The Respondent did not advice
Mr. Hjortsberg that his clients had filed for bankruptcy
and stated that he was "prepared to take the depositions
of Robert S. Svehlak and Neil D. Roseman as soon as
possible." With the February 20, 2013 bankruptcy filing,
all Moore litigation was automatically stayed and
became the property of the bankruptcy estate. The
Respondent had no legal authority to take any action
in any pending litigation after February 20, 2013.
On April 3, 2013, Mr. Baer filed an Application
to Employ Whiteford, Taylor & Preston, LLP as Special
Counsel to Trustee. The Application was granted and
David Daneman, Esquire, entered his appearance in
the Imagine Capital v. Moore and Moore v. Svehlak
matters.
By Memorandum Opinion filed July 11, 2013,
the U.S. District Court remanded Moore v. Svehlak
to the Circuit Court for Baltimore City.
On December 11, 2013, the Trustee filed a
motion for approval of the Settlement and Compromise
that Mr. Daneman had reached with the defendants in
the Moore v Svehlak matter as well as the appellants
in Imagine v. Moore. The settlement provided, inter
alia, that in exchange for the Defendants' payments

App.58a

in the aggregate amount of $137,500.00, the Trustee
would dismiss Moore v. Svehlak the action. The agreement further provided that the stay would be lifted in
the Court of Special Appeals to allow an opinion and
mandate to be issued in Imagine v. Moore. On March
17, 2014, the Bankruptcy Court granted the Trustee's
Motion for Approval of Settlement and Compromise.
The Court of Special Appeals Issues Its Opinion
On November 17, 2014, the Court of Special
Appeals (J. Wright) filed an unreported opinion in
Imagine v. Moore. The Court reversed the Circuit Court
finding and remanding the case for further proceedings.
Based upon the settlement agreement reached in the
bankruptcy proceedings, the Circuit Court confessed
judgment action was dismissed on December 19, 2014.
On December 18, 2014, the Respondent filed a
frivolous Motion for Rehearing and Reconsideration;
and Motion Requesting Reported Opinion Pursuant to
Md. Rule 8-605.1 and a Motion for Leave to File Amicus
Paper in the Court of Special Appeals. The Motions
were denied by order dated January 14, 2015.
The Government Declines Intervention
In November 2014, the Government filed
Notices of Election to Decline Intervention in both
Qui Tam actions.
The Respondent Files Proofs of Claim
in the Bankruptcy Court
During the pendency of the bankruptcy proceeding, the Respondent filed five proofs of claim
against the Debtors' estate associated with his repre-

App.59a

sentation of the Moores. The claims, including amendments, totaled $85,604.61. Both the Trustee and the
Moores filed objections to the claims. On May 21,
2015, the Trustee filed Notice of Assignment of Bankruptcy Estate's Qui Tam Claims. The Trustee assigned
the claims to the Respondent in exchange for withdrawal of his claims against the Estate. As of the
date of this filing, the Respondent has not caused any
of the Qui Tam defendants to be served.
68. Petitioner represents and charges that Respondent, by his acts and omissions as described herein,
engaged in professional misconduct and violated the
following Maryland Lawyers' Rules of Professional
Conduct, as adopted by Maryland Rule 16-812:
Rule 1.1. Competence
A lawyer shall provide competent representation
to a client. Competent representation requires the
legal knowledge, skill, thoroughness and preparation
reasonably necessary for the representation.
Rule 3.1. Meritorious Claims and Contentions
A lawyer shall not bring or defend a proceeding,
or assert or controvert an issue therein, unless there
is a basis for doing so that is not frivolous, which
includes, for example, a good faith argument for an
extension, modification or reversal of existing law. A
lawyer may nevertheless so defend the proceeding as
to require that every element of the moving party's
case be established.
Rule 3.2. Expediting Litigation
A lawyer shall make reasonable efforts to expedite
litigation consistent with the interests of the client.

App.60a

Rule 3.4. Fairness to Opposing Party and Counsel
A lawyer shall not:
(c) knowingly disobey an obligation under the
rules of a tribunal except for an open refusal
based on an assertion that no valid obligation
exists;
in trial, allude to any matter that the lawyer
does not reasonably believe is relevant or
that will not be supported by admissible
evidence, assert personal knowledge of facts
in issue except when testifying as a witness,
or state a personal opinion as to the justness of a cause, the credibility of a witness,
the culpability of a civil litigant or the guilt
or innocence of an accused;
Rule 4.4. Respect for Rights of Third Persons
(a) In representing a client, a lawyer shall not
use means that have no substantial purpose other
than to embarrass, delay, or burden a third person,
or use methods of obtaining evidence that the lawyer
knows violate the legal rights of such a person.
Rule 8.4. Misconduct
It is professional misconduct for a lawyer to:
(a) violate or attempt to violate the Maryland
Lawyers' Rules of Professional Conduct,
engage in conduct involving dishonesty, fraud,
deceit or misrepresentation;
engage in conduct that is prejudicial to the
administration of justice;

App.61a

WHEREFORE, Petitioner requests that this
Honorable Court:
Take such disciplinary action against the
Respondent as it deems appropriate;
Assess against the Respondent, in the form
of a money judgment, the reasonable costs
of these proceedings, both arising subsequently to the filing of these charges and
necessarily incurred in investigating the
same prior to the fling hereof; and
Take such other and further action as this
Court may deem appropriate under the
circumstances.

Respectfully submitted,

/s/ Glenn M. Grossman
Bar Counsel
/s/ Lydia E. Lawless
Assistant Bar Counsel
Attorney Grievance
Commission of Maryland
200 Harry S. Truman Parkway
Suite 300
Annapolis, Maryland 21401
(410) 514-7051
lydia.lawless@agc.maryland.gov
Attorneys for Petitioner

App.62a

AGC ANSWERS TO RHEINSTEIN'S CORRECTED
FIRST SET OF INTERROGATORIES
—RELEVANT EXCERPTS
(AUGUST 30, 2017)
IN THE CIRCUIT COURT FOR
ANNE ARUNDEL COUNTY, MARYLAND

ATTORNEY GRIEVANCE
COMMISSION OF MARYLAND,
Petitioner,
v.
JASON EDWARD RHEINSTEIN,
Respondent.
Case No. C-02-CV-16-000597
Court of Appeals Case No. Misc. Docket AG No. 77,
September Term, 2015
The Attorney Grievance Commission of Maryland,
Petitioner, by Lydia E. Lawless, Bar Counsel, its attorney, hereby responds pursuant to Maryland Rule 2421(b) to Respondent's Corrected First Set of Interrogatories to Petitioner.

App.63a

Interrogatory No. 17:
As to any Maryland Lawyers [sic] Rule of Professional Conduct alleged to have been violated in the
Operative PDRA, identify each and every specific
"Fact," which is alleged in the Operative PDRA, which
you contend renders the Respondent's "actions or
omission" a violation of the given rule.
ANSWER: Petitioner objects to this interrogatory
to the extent that it is ambiguous, and it appears to
call for a legal conclusion. To the best Petitioner is
able to decipher the request as one seeking information
about which of the averments in the PDRA support the
allegation that the Respondent violated the Rules of
Professional Conduct, such information is contained
on Schedule A attached hereto and incorporated by
reference herein.
.
Interrogatory No. 19:
As to any Maryland Lawyers [sic] Rule of Professional Conduct alleged to have been violated in the
Operative PDRA, identify the number of distinct or
separate occasions you contend the Respondent violated such Rule.
ANSWER: See Schedule A attached hereto.
[
Is/ Lydia E. Lawless
Bar Counsel
Attorney Grievance
Commission of Maryland
200 Harry S. Truman Parkway,

App.64a

Suite 300
Annapolis, MD 21401
lydia.lawless@agc.maryland. gov
Phone: (410) 514-7051
Attorney for Petitioner
I, Marc 0. Fiedler, am the Lead Investigator for
the Office of Bar Counsel of the Attorney Grievance
Commission of Maryland. The information contained
in the foregoing Petitioner's Answers to Interrogatories
is derived from the records maintained in the ordinary
course of business of the Attorney Grievance Commission, and from information provided by officials,
employees and/or agents of the Office of Bar Counsel.
I do not have personal knowledge of the information
contained therein, although I am authorized to execute
these Answers on behalf of the Petitioner.
With these conditions, I DO HEREBY DECLARE
AND AFFIRM, under the penalties of perjury, that the
content of the foregoing Answers to Interrogatories
are true and correct to the best of my knowledge,
information and belief

/s/ Marc 0. Fiedler
Lead Investigator

App.65a

AGC SCHEDULE A:
ANSWERS TO INTERROGATORIES AND
RESPONSES TO REQUEST FOR PRODUCTION
OF DOCUMENTS—RELEVANT EXCERPTS
(AUGUST 21, 2017)
IN THE CIRCUIT COURT FOR
ANNE ARUNDEL COUNTY, MARYLAND

ATTORNEY GRIEVANCE
COMMISSION OF MARYLAND,
Petitioner,
v.
JASON EDWARD RHEINSTEIN,
Respondent.
Case No. C-02-CV-16-000597
Court of Appeals Case No. Misc. Docket AG No. 77,
September Term, 2015
AVERMENT # 8
In October 2011, the Moores retained the Respondent to represent them in challenging the
confessed judgments. The Respondent developed
an elaborate conspiracy theory involving Imagine,
its principals, attorneys, lenders and other associates. In October 2011, the Respondent embarked
on a crusade to prove his theory. His conduct

App.66a

exceeded the bounds of zealous advocacy. As outlined below, he threatening those he believed to be
co-conspirators, filed countless frivolous papers
and general engaged in vexatious litigation.
MLRPC
1.1, 3.1, 3.4, 4.4, 8.4(a),(d)
EVIDENCE
Imagine v. Moore, et al.
Circuit Court Baltimore City
Case No. 24-C-09-003634
Imagine v. Moore, et al.
Court of Special Appeals No. 2445
Sept. Term 2011
Moore v. Imagine
Court of Appeals No. 104
Sept. Term 2012
Moore v. Imagine
Court of Appeals No. 409
Sept. Term 2012
Moore et al. v. Svehlak et al.
Circuit Court Baltimore City
Case No. 12-C-12-003357
Moore et al v. Svehlak et al.
US District Court
Case No. 12-cv-2727
USA ex rel. v. Cardinal Financial
US District Court
Case No. 12-v-1824
USA ex rel. v. Cardinal Financial
US District Court

App.67a

Case No. 12-v-2093
In re Charles E. Moore
Bankruptcy Court
Case No. 13-12841
AVERMENT # 32
On June 20, 2012, the Respondent, on behalf of
Mr. Moore, filed a Qui Tam action in the U.S.
District Court for the District of Maryland (United
States of America Ex rel. Charles E. Moore v.
Cardinal Financial Company, LP et al. Case No.
1:12-cv-01824) (hereinafter "Qui Tam I"). The
complaint named 10 defendants including Mr.
Svehlak and alleged mortgage fraud and violations
of the false claims act.
MLRPC
1.1, 3.1, 8.4(a),(d)
EVIDENCE
United States of America Ex rel. Charles E. Moore
v. Cardinal Financial Company, LP et al.
United States District Court
Case No. 1:12-cv-01824
AVERMENT
Also on July 13, 2012, the Respondent filed a
second Qui Tam action in the U.S. District Court
naming 24 defendants including Mr. Svehlak, Mr.
Roseman and Imagine Capital (United States of
America ex rel. Charles E. Moore v. Robert S.
Svehlak, et al. Case No. 1:12-cv-02093) (hereinafter "Qui Tam II").
MLRPC

App.68a

1.1, 3.1, 8.4(a),(d)
EVIDENCE

United States of America ex rel. Charles E. Moore
v. Robert S. Svehlak, et al.
US District Court
Case No. 12-cv-2727
AVERMENT # 66

In November 2014, the Government filed Notices
of Election to Decline Intervention in both Qui Tam
actions.
MLRPC
1.1, 3.1, 8.4(a),(d)
EVIDENCE

USA ex rel. v. Cardinal Financial
US District Court
Case No. 12-v-1824
USA ex rel. v. Cardinal Financial
US District Court
Case No. 12-v-2093
AVERMENT # 67

During the pendency of the bankruptcy proceeding,
the Respondent filed five proofs of claim against
the Debtors' estate associated with his representation of the Moores. The claims, including amendments, totaled $85,604.61. Both the Trustee and
the Moores filed objections to the claims. On May
21, 2015, the Trustee filed Notice of Assignment
of Bankruptcy Estate's Qui Tam Claims. The
Trustee assigned the claims to the Respondent
in exchange for withdrawal of his claims against

App.69a

the Estate. As of the date of this filing, the Respondent has not caused any of the Qui Tam
defendants to be served.
MLRP C
1.1, 3.1, 4.4, 8.4(a),(d)
EVIDENCE
USA ex rel. v. Cardinal Financial
US District Court
Case No. 12-v4824
USA ex rel. v. Cardinal Financial
US District Court
Case No. 12-v-2093
In re Charles E. Moore
Bankruptcy Court
Case No. 13-12841

App.70a

DEPOSITION OF AGC DESIGNEE
MARIANNE J. LEE
TRANSCRIPT—RELEVANT EXCERPT
(AUGUST 7, 2017)
IN THE CIRCUIT COURT FOR
ANNE ARUNDEL COUNTY, MARYLAND

ATTORNEY GRIEVANCE
COMMISSION OF MARYLAND,
Petitioner,
v.
JASON EDWARD RHEINSTEIN,
Respondent.
Case No. C-02-CV-16-000597
Court of Appeals Case No. Misc. Docket AG No. 77,
September Term, 2015

[4 ugust Z 2017 Transcript, p. 4151
Q Okay. All right. Let's move to paragraph 32.
Does paragraph 32 allege a violation of the disciplinary rule? What rules are implicated?
A

Okay. So the answer to your first question is yes.
And the Maryland Lawyers' Rule of Professional
Conduct are 1.1 competence; 3.1 meritorious claims
and contentions; and 8.4(a) and (d) misconduct.

App.71a

Q

Now, it doesn't say here frivolous in this paragraph, but you're suggesting that this case was
frivolous?

A Well, 3.1 is captioned meritorious claims and
contentions. And you're asking me what question?
I'm sorry.
I'm asking you whether 32, whether qui tam I
was—is alleged to have been frivolous?
MS. LAWLESS: Objection. The witness has testified
as to the rules that are associated with that
paragraph.
MR. RHEINSTEIN: Okay.
What facts about qui tam I do you have to—that
its filing, under seal, on June 20th, 2012,
constituted a violation of four disciplinary rules?
MS. LAWLESS: Objection. You may answer.
A

Can you repeat the question?

Q What facts about qui tam I rendered its filing in
violation of four disciplinary rules?
MS. LAWLESS: Objection. You may answer.
A The facts as provided in the pleadings captioned
United States of America, Charles E. Moore versus
Cardinal Finance Company, L.P. et al. United
States District Court case number 1:12-cv-01824.
Now—
A

Short of that, I don't know—
Does the—

A —more.

App.72a
Does the petitioner dispute that Mr. Svehlak
sold a property to a straw buyer at 2138 Hollins
Street, Baltimore, Maryland 21223?
MS. LAWLESS: Objection.
Mr. Rheinstein, we did not designate any designee
at the Attorney Grievance Commission to testify
on this topic. This is outside of Ms. Lee's designation.
MR. RHEINSTEIN: Well, it isn't. It is not, because
she's also designated for number 1. And you've
just alleged that it was a violation of Rule 3.1 to
assert that Robert Svehlak, you know, was involved
in mortgage fraud and violated the False Claims
Act. Ms. Lee has just testified to that.
So I'm asking Ms. Lee, does petitioner dispute
that Robert Svehlak sold a property in 2138 Hollins
Street, Baltimore, Maryland 21223, to a straw
buyer named Stephanie 0. Mballa, on April 29th,
2010?
MS. LAWLESS: Objection. You may answer; if you
can.
A

I don't know.
Okay. Does petitioner dispute that Robert Svehlak
had potential liability under the False Claims
Act for this involvement in that transaction?

MS. LAWLESS: Objection.
Mr. Rheinstein, your question as to whether or
not someone has potential liability calls for a
legal analysis and opinion.
MR. RHEINSTEIN: But—

App.73a

MS. LAWLESS: Ms. Lee has not been designated on
that topic.
MR. RHEINSTEIN: She—
MS. LAWLESS: That is an articulated topic in your
86 topics for today. She has not been designated—
MR. RHEINSTEIN: But she's been designated on the
factual basis. I'm trying to understand the factual
basis surrounding number 32.
THE WITNESS: And I said the factual—
MS. LAWLESS: So—so, Mr. Rheinstein, ask a question
about the facts.
What—
MS. LAWLESS: You're asking—
—facts—
MS. LAWLESS: Please don't—
—that you're aware—
MS. LAWLESS:—interrupt me.
MR. RHEINSTEIN: Okay.
MS. LAWLESS: Please don't interrupt me.
What facts, that you know of, Ms. Lee, rendered
the filing of this complaint, that you know of, as
the representative today of the petitioner, rendered
the filing of this qui tam action a violation of
four disciplinary rules?
MS. LAWLESS: Objection. It's been asked and
answered. You may answer again.
A So, as I stated previously, that the facts are as
provided in the pleadings of the case captioned

App.74a

United States of America, Charles E. Moore v.
Cardinal Finance Company, L.P., et al., United
States District Court matter.
Short of that, I do not know. I have not—
Okay.
A

—reviewed the entire files of corporate designee.
I have not had the opportunity to review all of
the documents that are here today that, frankly,
you know, you're asking me to pick out the specific
facts. And short of me reviewing the entire file,
I'm unable to do that.
[ .
Okay. But these-okay. Next. Let's go to paragraph
32—excuse me. 36.

A Paragraph 36? All right. And that's paragraph
36 of the PDRA?
Q Yes.
A

All right. I'm at paragraph 36.
Yes.

A

There's a question?

Q

Yes. Does that implicate any violations?

A

It implicates Maryland Lawyer Rule of Professional
Conduct 1.1 competence; 3.1; 8.4(a) and (d).
What facts about that case implicate those rules?

A The facts as provided in the documents in case
captioned United States of America, Charles E.
Moore, versus Robert S. Svehlak, et al. in the
TJ.S. District Court, case number 12-cv-2727.
Q

What facts that you know of specifically?

App.75a

A

I don't know the specific facts. As I stated before, .
short of me having to review the court record or
the documents in that case, I don't know the specific dates.

